<html>
<title> - NOMINATION OF ANNETTE SANDBERG TO BE ADMINISTRATOR OF THE FEDERAL MOTOR CARRIER SAFETY ADMINISTRATION</title>
<body><pre>[Senate Hearing 108-743]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-743



                 NOMINATION OF ANNETTE SANDBERG TO BE 
    ADMINISTRATOR OF THE FEDERAL MOTOR CARRIER SAFETY ADMINISTRATION

=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 8, 2003

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



                    U.S. GOVERNMENT PRINTING OFFICE
91-360                      WASHINGTON : 2005
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

           COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                     JOHN McCAIN, Arizona, Chairman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South Carolina
CONRAD BURNS, Montana                DANIEL K. INOUYE, Hawaii
TRENT LOTT, Mississippi              JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
OLYMPIA J. SNOWE, Maine              JOHN F. KERRY, Massachusetts
SAM BROWNBACK, Kansas                JOHN B. BREAUX, Louisiana
GORDON SMITH, Oregon                 BYRON L. DORGAN, North Dakota
PETER G. FITZGERALD, Illinois        RON WYDEN, Oregon
JOHN ENSIGN, Nevada                  BARBARA BOXER, California
GEORGE ALLEN, Virginia               BILL NELSON, Florida
JOHN E. SUNUNU, New Hampshire        MARIA CANTWELL, Washington
                                     FRANK LAUTENBERG, New Jersey

      Jeanne Bumpus, Republican Staff Director and General Counsel
             Robert W. Chamberlin, Republican Chief Counsel
     Kevin D. Kayes, Democratic Staff Director and General Counsel
                Gregg Elias, Democratic General Counsel


                            C O N T E N T S

                              ----------                              

                                                                   Page

Hearing held on May 8, 2003......................................     1
Statement of Hon. Cantwell.......................................     4
Statement of Hon. Lautenberg.....................................     4
Statement of Hon. McCain.........................................     1
    Prepared statement...........................................     1

                               Witnesses

Sandberg, Annette, Administrator-Designate, Federal Motor Carrier 
  Safety Administration..........................................     5
    Prepared statement...........................................     6
    Biographical information.....................................     9
Murray, Hon. Patty, U.S. Senator from Washington.................     2

 
NOMINATION OF ANNETTE SANDBERG TO BE ADMINISTRATOR OF THE FEDERAL MOTOR 
                     CARRIER SAFETY ADMINISTRATION

                              ----------                              


                         THURSDAY, MAY 8, 2003

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:05 a.m. in 
room SR-253, Russell Senate Office Building, Hon. John McCain, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. JOHN McCAIN, 
                   U.S. SENATOR FROM ARIZONA

    The Chairman. The Committee meets this morning to consider 
the nomination of Annette Sandberg to serve as Administrator of 
the Federal Motor Carrier Safety Administration (FMCSA). Ms. 
Sandberg has served as the FMCSA's Acting Administrator since 
January and as the Deputy Administrator since last November.
    Having also served as the Deputy Administrator of the 
National Highway Traffic Safety Administration, (NHTSA), and as 
Chief of the Washington State Patrol, she is uniquely qualified 
to lead the agency charged with preventing commercial motor 
vehicle related fatalities and injuries. The Federal Motor 
Carrier Safety Administration was established in January 2000 
with the strong bipartisan support of this Committee. The 
remainder of my statement will be included in the record.
    I am hopeful the Administration will finally submit its 
proposal to reauthorize the Transportation Equity Act of the 
21st century, known as TEA-21, including the highway safety 
programs in the Act which expires in September.
    [The prepared statement of Senator McCain follows:]

                Prepared Statement of Hon. John McCain, 
                       U.S. Senator from Arizona

    The Committee meets today to consider the nomination of Annette 
Sandberg to serve as Administrator of the Federal Motor Carrier Safety 
Administration (FMCSA). Ms. Sandberg has served as FMCSA's Acting 
Administrator since January and as the Deputy Administrator since last 
November. Having also served as Deputy Administrator of the National 
Highway Traffic Safety Administration (NHTSA) and as Chief of the 
Washington State Patrol, she is uniquely qualified to lead the agency 
charged with preventing commercial motor vehicle-related fatalities and 
injuries.
    The Federal Motor Carrier Safety Administration was established in 
January 2000 with the strong bipartisan support of this committee. 
Truck-related crashes and fatalities had been growing at an alarming 
rate, and it was determined that specific focus apart from the Federal 
Highway Administration could help promote truck and bus safety 
improvements. In 2002, the number of fatalities in accidents involving 
large truck declined 3.5%, while highway fatalities for all vehicles 
increased slightly compared to 2001.
    FMCSA administers the Motor Carrier Safety Assistance Program, 
which provides grants to the states for truck inspections and other 
safety enforcement activities, and the Commercial Driver's License 
(CDL) Program. It also is responsible for inspectors and regulations 
that will govern the operation of Mexico-domiciled motor carriers in 
the U.S. once the border is opened with Mexico. Further, FMCSA oversees 
other aspects of commercial vehicle and driver safety and has just 
issued the first substantive modifications to the hours-of-service 
rules for motor carriers since 1939.
    The Committee has scheduled a hearing on motor carrier safety 
issues for later this month. By that time, I am hopeful the 
Administration will finally have submitted its proposal to reauthorize 
the Transportation Equity Act for the 21st Century, known as ``TEA-21, 
including the highway safety programs in the Act, which expires in 
September.
    I would like to welcome Annette Sandberg and thank her for being 
here today. I know your nomination is a great honor, and that your 
family is very proud. I understand your parents are here today and 
would also like to welcome them and other special guests in the 
audience.
    I am hopeful that the Committee and the full Senate will move this 
nomination quickly. Several important matters await agency action and 
Ms. Sandberg's capable leadership. I want to thank her in advance for 
her willingness to serve in this important position.

    The Chairman. I would like to welcome Annette Sandberg and 
thank her for being here today. I know your nomination is a 
great honor and that your family is very proud. I understand 
your parents are here today. I would like to welcome them and 
other special guests in the audience, and if you would care to 
introduce them, Ms. Sandberg, we will be glad to welcome them 
before the Committee.
    Ms. Sandberg. Yes, thank you, Senator. My parents, Jim and 
Shirley Sandberg from Washington State are here, and a couple 
of friends, Greg Keith and Harvey Stein, and a number of 
friends from NHTSA and Motor Carriers.
    The Chairman. Great. Welcome to your parents, it's a very 
proud moment for you, thank you for being able to attend and I 
know you're very proud of your daughter.
    As you can see by the significant presence of members of 
the Committee, your nomination is the subject of great 
controversy.
    [Laughter.]
    The Chairman. Except I want to say that Senator Lautenberg 
is here, he's at every hearing, so don't take that as an 
indication.
    I know that we have two of our distinguished colleagues 
from your home State of Washington here to say a few words on 
your behalf or in opposition to your nomination. We would like 
to begin with our senior colleague from the State of 
Washington. Welcome, Senator Murray.

                STATEMENT OF HON. PATTY MURRAY, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Murray. Thank you very much, Mr. Chairman, and 
Senator Lautenberg. I am truly delighted to be here this 
morning to introduce Annette Sandberg, who is President Bush's 
nominee to be the Federal Motor Carrier Safety Administrator.
    As you well know, Mr. Chairman, the Federal Motor Carrier 
Safety Administration is just 3 years old and so it's a 
relatively new agency within the Department of Transportation, 
but this agency has an extremely important mission in 
overseeing our Nation's commercial motor vehicle industry.
    We know there are many safety issues that need attention, 
from the commercial driver's license program to the 
transportation of hazardous materials. Annette Sandberg is 
uniquely qualified to be the FMCSA Administrator. She comes 
with a strong background in law enforcement, including over 17 
years with the Washington State Patrol.
    In fact, in 1995, Annette became the first woman in the 
country to lead a State police agency when she was appointed 
chief of the Washington State Patrol, a position that she held 
for 6 years. Annette holds a law degree from the University of 
Puget Sound, and a master's in business administration from 
City University in Bellevue, Washington.
    She also brings experience in the executive branch. In 
March of 2002, the President appointed her Deputy Administrator 
of the National Highway Traffic Safety Administration. In 
December, she was named Acting Administrator of the Federal 
Motor Carrier Safety Administration.
    Under Annette's leadership at the Federal Motor Carrier 
Safety Administration, the final rule revising the hours of 
service in the motor carrier industry was finally released just 
a few weeks ago. This was the first major change in this 
critical area to be finalized in nearly 65 years. And whether 
one agrees or disagrees with all parts of the final rule, it is 
quite impressive that Annette could get the job done while 
performing in an acting capacity.
    Mr. Chairman, I just want to say personally, I have known 
and worked with Annette for many years. When I talk with young 
girls at elementary and middle schools throughout the State of 
Washington, I always encourage them to think about non-
traditional careers, from being a pilot to working in 
construction or law enforcement, and Annette is the example I 
mention around our State because she is not only one of the few 
women to make it to the top of her field, but along the way she 
has earned the respect of everyone who's worked with her.
    Today she mentioned, she is joined by her parents, Jim and 
Shirley Sandberg, who are from Moses Lake, but I also want to 
mention her siblings who couldn't be with her today. Her 
sisters Laurie Garrett, also from Moses Lake, and Cindy 
Harrison, from Chelan, and her brother Scot Sandberg, from 
Bonney Lake, Washington.
    Mr. Chairman, I strongly support Annette Sandberg's 
nomination to be Administrator of the Federal Motor Carrier 
Safety Administration and I urge this Committee to approve her 
nomination expeditiously.
    Mr. Chairman, I thank you for your courtesy, and I do have 
to leave. We have a Transportation Appropriations Committee 
hearing with the Secretary of Transportation, but I really want 
to thank you for this hearing and for considering Annette 
Sandberg.
    The Chairman. Thank you, Senator Murray, thank you for 
being able to be here on behalf of this fine candidate. I know 
it means a lot to her that you were here. Thank you for taking 
the time.
    Senator Cantwell, welcome.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman. Thank you for 
giving me this opportunity to join with my senior Senator in 
praising the work that Annette Sandberg has done and for 
nominating her for this position as Administrator of the 
Federal Motor Carrier Safety Administration.
    Many of the Committee members will probably know her or got 
to know her in her role as the Deputy Administrator of the 
National Highway Traffic Safety Administration, or as the 
Acting Director of the Federal Motor Carrier Safety 
Administration. But for us in Washington State, as Senator 
Murray said, we've known this woman, she's had a long and 
distinguished career.
    And Senator Murray mentioned that she was the first female 
chief of the State Patrol, and was the first female chief of 
any State patrol in the country, and she did so at the wise old 
age of 33, so she has been blazing a trail for some time.
    As a State trooper, she earned both her law degree and 
master's degree, so she accomplished a lot while holding down 
that responsibility. And in the 6 years as the chief of the 
patrol, Annette Sandberg's achievement in approving a new 
canine dog unit to sniff out drug importation into our State, 
which is very important for us. Being on the Canadian border, 
we've had a lot of activity, and that program has been a great 
success, actually more successful than actually having more 
manpower on the border, having these canine dogs because they 
do a very efficient job.
    She also served on the Department of Justice Task Force on 
Racial Profiling. She made sure that Washington was among the 
first States to be collecting data on traffic stops and 
implementing officer training in this area, so again, 
groundbreaking work.
    But as Annette has told many people, including her 
colleagues, she believes that road safety is one of her big 
passions and she would like to continue that work. So that's 
why I'm proud here today to recommend her to the Committee with 
all the highest regards from her work in the State and her most 
recent work in this position. I know that in this position of 
the Federal Motor Carrier Safety Administration, she will do a 
tremendous job in serving the country, and I am so excited that 
she is here before the Committee, and maybe in light of the 
Committee attendance, I will ask to try to ask a not so hard 
question, but something that would bring out some of the issues 
that Annette has gained such expertise and that our country 
will benefit from.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Cantwell. I know you have 
other responsibilities, but I thank you for taking the time to 
be here to introduce the witness. Thank you.
    Senator Lautenberg.

              STATEMENT OF HON. FRANK LAUTENBERG, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg. Thanks, Mr. Chairman. I'm happy to be 
able to be here to hold up another side to this important 
issue.
    The State of New Jersey gets more than its share of truck 
traffic, even though it doesn't get its fair share in my view 
of federal dollars, but that's something we will work on at 
other meetings.
    I understand and we are pleased to have such a qualified 
candidate for a position like this, it's an important 
responsibility. If one sees these 58-foot trucks, and I wrote 
some legislation years ago to limit the access of triple 
trailers to our roads in New Jersey, and to keep them from any 
other State that at that moment didn't have them.
    Now, I understand that FMCSA is committed to reducing the 
truck, large truck fatality rate by 41 percent by the year 
2008, and I think that's a worthy goal. We know that almost 
5,000 people died in accidents involving trucks in 2001, and, 
including 71 large trucks involved in fatal crashes in New 
Jersey.
    Now, there are a number of proposals from the trucking 
industry and others to increase the size and weight of the 
trucks on the interstates including lifting the freeze on LCVs, 
triples, doubles, and Miss Sandberg, I realize that trucks play 
an important role in our national transportation system. But 
how do you--and we will be looking to you for advice and 
perhaps enforcement of the laws that exist now, so that we can 
make more sense for our propositions to improve safety.
    Is your agency considering any changes to the freeze on 
LCVs and would the Agency under your jurisdiction entertain any 
proposals to change the current LCV freeze?
    The Chairman. Senator Lautenberg, could I just ask that 
perhaps Ms. Sandberg could give an opening statement, if that 
would be okay, and then I will go right back to you for your 
questions.
    Senator Lautenberg. I'm sorry. Not a problem.
    The Chairman. Thank you.
    Welcome, Ms. Sandberg, and then we will go, if you could 
right after your statement, perhaps respond to Senator 
Lautenberg's question. I will recognize him after your opening 
statement. Welcome.

  STATEMENT OF ANNETTE M. SANDBERG, ADMINISTRATOR-DESIGNATE, 
          FEDERAL MOTOR CARRIER SAFETY ADMINISTRATION

    Ms. Sandberg. Thank you. Thank you, Mr. Chairman and 
members of the Committee. I want to thank Senator Murray and 
Senator Cantwell for their kind introductions.
    I am honored to have been nominated for this position by 
President Bush with the concurrence of Secretary Mineta. If 
confirmed, I look forward to working closely with the members 
of this Committee and your staff to administer the programs of 
the Federal Motor Carrier Safety Administration.
    As Secretary Mineta has said many times, safety is the top 
transportation priority in this Administration, and one I share 
both personally and professionally. I have spent the majority 
of my career seeking to improve the safety of our Nation's 
citizens, first as a commissioned officer with the Washington 
State Patrol, and now in the Federal Government.
    As a police officer, I have witnessed the tragic life-
altering consequences of motor vehicle crashes. It is from 
these experiences that I have developed a passion for improving 
highway safety. If confirmed for this position, my goal is to 
insure all the programs of the Federal Motor Carrier Safety 
Administration work to achieve our goal, that of reducing 
commercial motor vehicle-related deaths and injuries.
    I believe that creating a separate agency 3 years ago was a 
great step towards achieving this goal. However, as a young 
agency, Federal Motor Carrier Safety Administration has a 
tremendous challenge ahead. Every program in the Agency must be 
performance-driven and show that it contributes to achieving 
the goal of reducing fatalities and injuries on our Nation's 
highways.
    Having come from State government, I understand the 
importance of our State partners. I understand that if we are 
to make real progress towards reducing injuries and deaths, it 
will be done at many levels, most importantly through education 
coupled with strong enforcement. If given the honor to serve in 
this position, I will work closely with our State partners and 
other stakeholders to improve highway safety.
    I believe the most important thing we need to remember in 
the Federal Motor Carrier Safety Administration is that every 
fatality and injury statistic we deal with is someone's mother, 
father, sister or brother. I have had the opportunity as Deputy 
Administrator of NHTSA to talk to staff about the tragedy I saw 
as a law enforcement officer. Those tragic scenes will be 
forever imprinted in my mind. If confirmed as Administrator, I 
commit to you, I will never let Federal Motor Carrier Safety 
Administration lose sight of the fact that we were created to 
ensure those fathers, mothers, sisters and brothers go home 
safely at the end of every trip.
    I want to thank this Committee for the opportunity to be 
here today and for consideration of my nomination. I would be 
happy to answer questions, and if you would like, I could go 
directly into the answer for Senator Lautenberg's question.
    [The prepared statement and biographical information of Ms. 
Sandberg follows:]

  Prepared Statement of Annette M. Sandberg, Administrator-Designate, 
              Federal Motor Carrier Safety Administration

    Mr. Chairman and Members of the Committee: Thank you for the 
opportunity to appear before you today as you consider my nomination 
for the position of Administrator of the Federal Motor Carrier Safety 
Administration (FMCSA). I am sincerely honored by the trust and 
confidence that President Bush has shown in nominating me for this 
position, and am deeply appreciative of the support from Secretary 
Mineta in his concurrence with the President's action.
    I thank the members of this Committee in advance for their 
consideration of my nomination. Should you choose to confirm me, I will 
look forward to the privilege of working with the Committee, each of 
you, and your staff to further the critical mission and goals of the 
Federal Motor Carrier Safety program.
    Safety clearly is the top transportation priority of this 
Administration and, as Secretary Mineta consistently reminds us, 
guaranteeing the safety of the traveling public is the ``number one job 
at the Department of Transportation (DOT).'' The FMCSA is at the very 
heart of that Departmental mission and, in turn, safety is at the heart 
of the FMCSA's name and mandate. This safety orientation is one I share 
both personally and professionally. As a police officer and now in the 
Federal Government, I have spent the overwhelming majority of my career 
seeking to improve highway safety. I have had the distinct privilege to 
serve as Deputy Administrator of FMCSA for the past six months and can 
attest, first-hand, to the agency's devotion to and success in reducing 
commercial motor vehicle crashes and saving lives. I would welcome this 
Committee's decision to entrust me with the role of leading that 
crucial and rewarding effort as FMCSA Administrator.
    When Congress created the FMCSA in January 2000, it wisely elevated 
a critical safety oversight function and provided tangible assurance of 
a national commitment to improved highway safety. The ongoing support 
provided to FMCSA by this Committee has enabled the agency to make 
notable strides on several safety fronts, including increased 
enforcement and compliance activity and enhanced border operational 
safety. We have seen fatalities in crashes involving large trucks 
reduced in each of the years FMCSA has been in existence, including an 
estimated 3.5 percent decline in 2002, the most recent year for which 
data are available. Nonetheless, there is more that needs to and can be 
done to reduce the almost 5,000 fatalities that result annually from 
highway crashes involving large trucks. We believe the safety focus of 
the last few years on developing regulations, strengthening enforcement 
activities, and seeking to educate partners and stakeholders on safety 
countermeasures has contributed to improved safety performance.
    The agency's commitment to safety now is exercised as part of a 
Departmental effort among transportation modes that would yield a 41 
percent reduction in the fatality rate by the year 2008. FMCSA's 
targeted contribution to the DOT goal is set at a reduction of 1.65 
commercial vehicle crash fatalities per 100 million miles of truck 
travel. I recognize that achieving this goal will present the FMCSA, in 
particular, with increasing challenges in view of the trend that shows 
commercial vehicle travel miles increasing at a considerably faster 
rate than passenger car travel miles. On average, over the past 15 
years, truck and bus travel has increased by 3.4 percent annually, 
while passenger car travel increases have been running at 2.8 percent. 
This trend is projected to continue.
    With full recognition of the challenges faced by DOT and FMCSA in 
addressing commercial motor vehicle (CMV) and highway safety, I come 
before this Committee to share my enthusiasm for and commitment to the 
opportunity my nomination presents. If confirmed, I pledge not only to 
continue the momentum of FMCSA's formative years to reduce CMV-related 
fatalities, but also to encourage new initiatives toward that end. I 
believe that my wide range of public and private sector experience--and 
particularly my background in law enforcement--equip me well to assume 
the challenges inherent in that commitment.
    During my career, I have developed a passion for highway safety. 
That passion is grounded in my 18 years of experience in a variety of 
enforcement, supervisory, and administrative posts with the Washington 
State Patrol (WSP). In fact, I started my career with the WSP in 
commercial motor vehicle enforcement and, in that capacity; I have been 
witness to the tragic, life-altering consequences of motor vehicle 
compliance breaches and departures from operational safety. No one can 
witness first-hand the aftermath of highway crashes and fatalities 
without developing the commitment to seek ways to reduce their number 
and tragic consequences.
    During my last six years with the WSP, the State's lead Motor 
Carrier Safety Assistance Program (MCSAP) agency, I had the privilege 
to serve as Chief. In that position, I participated fully in the 
State's Commercial Vehicle Information Systems and Networks (CVISN) 
development program. That experience impressed upon me the value of 
forging effective partnering relationships and leveraging valuable 
collaborations that capitalize upon the working strengths of both 
Federal and State partners. With that understanding, if confirmed as 
the FMCSA Administrator, I am poised to ensure that FMCSA works with 
its State partners and other stakeholders to share information, 
exchange knowledge, and provide technology assistance in order to 
expand and improve our working partnerships.
    During my tenure at the U.S. Department of Transportation--first as 
Deputy Administrator of the National Highway Traffic Safety 
Administration (NHTSA) and more recently in the equivalent capacity at 
FMCSA, I have witnessed the value of and encouraged trans-modal 
partnering to further common safety goals. As FMCSA continues to pursue 
its goal to meet the Department-wide fatality reduction target, it will 
be critical that the agency extend partnering relationships with NHTSA, 
as well as the Federal Highway Administration (FHWA) and the Research 
and Special Programs Administration (RSPA), to achieve optimal benefit 
from their mutually aligned safety initiatives.
    My experience within the Department has afforded me the opportunity 
to establish highly productive working relationships with the FMCSA's 
companion modal agencies. Secretary Mineta has insisted on modal 
administrations working collaboratively to establish comprehensive 
transportation safety programs and to break down any programmatic 
stovepipes. With this direction, I have formed very effective working 
partnerships with my colleagues in the other DOT modes.
    As Acting Administrator, I have become familiar with the FMCSA 
financial and personnel resources, as well as the agency program 
delivery process. I believe my management and program experience will 
help me lead the agency to find improvements in agency productivity and 
responsiveness. During its first three years, FMCSA has witnessed a 
significant increase in programmatic and management responsibilities. 
These include new initiatives such as preparing to open the United 
States-Mexico border to long-haul commercial motor vehicle traffic and 
designing and conducting Security Sensitivity Visits and related 
outreach in response to the events of September 11, 2001. In 
confronting these heightened performance expectations, the agency has 
grown more fully into its organizational capacity and has identified 
innovative responses to ever increasing regulatory and enforcement 
demands.
    Having survived three tumultuous formative years and the ``growing 
pains'' inherent in any organization's initial development, the FMCSA 
now is poised to meet the challenges of the President's Management 
Agenda through human capital management, improved financial 
performance, competitive sourcing, performance based budgeting, and E-
government. If confirmed to lead the agency, I would actively promote 
such initiatives and would require a full commitment to these agenda 
items on the part of agency management and staff.
    I already have had the opportunity to assist the agency in re-
engineering its rulemaking development process in a manner that will 
ensure the improved quality and timeliness of rules. The revised team-
based rule development process, as described in an agency directive I 
recently issued, is designed to build agency consensus through early 
involvement by senior managers, extensive staff and inter-agency 
collaboration, early and thorough evaluation and analysis of 
alternatives, and adherence to clear, well-articulated, goal-oriented 
milestones. As you know, a number of rulemakings are in process at 
FMCSA, and I assure you that I am personally involved in reviewing the 
relevance, timeliness, progress, and status of each one on an ongoing 
basis to ensure that the agency is focused on the right things and that 
each regulatory initiative will make a positive difference to 
commercial vehicle safety and compliance. If confirmed by this 
Committee, I anticipate overseeing an invigorated and streamlined 
regulatory development process that will ensure more efficient and 
expeditious regulatory responses to legislative initiatives.
    My optimism about the FMCSA and it's potential are grounded in 
FMCSA's recent record of progress in several major safety and 
enforcement initiatives, including the New Entrant Program, Southern 
Border Enforcement, and Hazardous Materials (HAZMAT) Safety and 
Security.
    The agency now is implementing the New Entrant Program Rulemaking 
that became effective on January 1, 2003. This initiative will ensure 
that new motor carriers know what it takes to be a safe carrier and 
have performance systems in place to improve operational safety on our 
roads and highways. The program includes a registration application 
process to confirm a new entrant's fundamental knowledge of the Federal 
Motor Carrier Safety Regulations, as well as a follow-up, on-site audit 
within the carrier's first 18 months of operation. Carriers that fail 
to demonstrate basic safety management controls during this period will 
be denied permanent operating authority.
    This program places FMCSA's safety spotlight squarely on the 
segment of the commercial motor carrier industry where inexperience has 
the potential to significantly compromise regulatory compliance and 
safety. The initiative also presents a crucial opportunity to partner 
with States in conducting the 40,000 to 50,000 new entrant safety 
audits that will be required annually. By working in partnership with 
the States to provide the majority of the personnel needed to conduct 
the new entrant audits, we will entrust those closest to the new 
entrant population with a significant share of this Federal/State 
partnership expected to yield critical safety results.
    As you know, the FMCSA's New Entrant Program meets the requirements 
of Section 350 of the FY 2002 DOT Appropriations Act as a precondition 
to opening the Southern Border to Mexican long-haul commercial traffic. 
This program, along with other agency initiatives, provided the basis 
for the President's lifting of the moratorium on granting authority for 
Mexican carriers to operate in the interior United States. The Southern 
Border remains closed to Mexican long-haul commercial traffic at this 
time, however, due to a Ninth Circuit Court of Appeals ruling that 
requires the Department to conduct more in-depth environmental analysis 
before implementing a series of rules that set compliance and safety 
monitoring standards for Mexican carriers seeking to operate in the 
United States. Opening the Southern Border pursuant to the terms of the 
North American Free Trade Agreement (NAFTA) remains a major priority of 
the Department. I can assure you that the FMCSA is working vigorously 
to see that all legal impediments to this critical initiative are 
removed. The agency remains poised to ensure both operational safety 
and security at the Southern Border as soon as entry of Mexican long-
haul carriers can become a commercial reality.
    Another key enforcement focus area for FMCSA is that of HAZMAT 
Safety and Security. Each day, more than 800,000 HAZMAT shipments move 
in this country; 94 percent of them by highway. The FMCSA has 
established a goal of 20 percent reduction in truck-related HAZMAT 
incidents by 2010, as compared with the year 2000 baseline. Targeted 
enforcement and compliance efforts currently are underway to achieve 
this goal.
    In sum, confirmation as the FMCSA Administrator would allow me the 
opportunity to manage an agency with an agenda that I have 
enthusiastically pursued throughout my entire career--safety. As I tell 
the agency staff, FMCSA is a safety agency that does enforcement. Our 
focus is to reduce the unnecessary suffering caused by commercial motor 
vehicle involved crashes. We also seek to obtain compliance by motor 
carriers with the safety regulations. Fines and penalties assessed 
through our enforcement program are not the objectives of the safety 
program; it is compliance with the regulations, which leads to improved 
safety. In my view, there is no higher calling in public service than 
the opportunity to save lives.
    Thank you for the opportunity to appear here today. I appreciate 
your consideration of my nomination and will try to answer any 
questions you may have.

                                 ______
                                 
                      A. BIOGRAPHICAL INFORMATION

    1. Name: Annette Michelle Sandberg
    2. Position to which nominated: Administrator--Federal Motor 
Carrier Safety Administration
    3. Date of nomination: March 24, 2003
    4. Address: Office: 400 Seventh Street, SW, Suite 8202, Washington, 
D.C. 20590
    5. Date and place of birth: November 14, 1961, Klamath Falls, 
Oregon
    6. Marital status: Single
    7. Names and ages of children: None
    8. Education: Big Bend Community College, Sept 1979-June 1981, 
Associate of Arts (6/81)
    Central Washington University, Sept. 1981-June 1983, Bachelor of 
Arts-Law and Justice (6/83)
    City University, Sept. 1986-Dec. 1988, Master of Business 
Administration, (12/88)
    University of Puget Sound School of Law, Doctor of Jurisprudence, 
(12/93)
    9. Employment record: Trooper Cadet, Trooper, Sergeant, Lieutenant/
Washington State Patrol-State of Washington/Wenatchee, Washington; 
Bellevue, Washington; Olympia, Washington; Tacoma, Washington/July 
1983-August 1994.
    Associate-Attorney-at-Law/The Law Office of Will Aitchison/Olympia, 
Washington/September 1994-March 1995.
    Chief/Washington State Patrol-State of Washington/Olympia, 
Washington/April 1995-February 2001.
    Expert Witness/City of Tukwila, Washington/Olympia, Washington/
February 2001.
    Of Counsel-Attorney-at-Law/Maple Valley Law Group/Olympia, 
Washington/June 2001-January 2002.
    Consultant/Lockheed Martin/Tri-Cities, Washington/September 2001-
January 2002.
    Consultant/U.S. Department of Justice/Olympia, Washington/November 
2001-January 2002.
    Deputy Administrator-National Highway Traffic Safety 
Administration-U.S. Department of Transportation/February 2002-November 
2002.
    Deputy Administrator/Acting Administrator-Federal Motor Carrier 
Safety Administration/U.S. Department of Transportation/December 2002-
Current.
    10. Government experience: Reserve Police Officer-City of 
Ellensburg, Washington--1983
    State Employee Benefits Board Member-State of Washington--1986-1988
    Law Enforcement and Firefighters Plan 1-Disability Board-Citizen 
Member-City of Lacey, Washington--1997-2001
    Member-U.S. Drug Enforcement Agency Committee on National Pointer 
System, 1996-1998
    Member-U.S. Department of Justice Committee on Racial Profiling in 
Law Enforcement, 1999-2000
    Executive Board Member-Western States Information Network, 1995-
2001
    Washington Reading Corp-Thurston County School District, Lacey, 
Washington--2000-2001
    Consulted a number of City Governments in my position with the 
Maple Valley Law Group
    11. Business relationships: Consultant/Lockheed Martin-Technology 
Services/Sept. 2001-Jan. 2002
    12. Memberships:
    Member, American Bar Association, 1995-present
    Member, Washington State Bar Association, 1994-present
    Member, Alaska State Bar Association, 1995-present
    Member, National Executive Institute, Federal Bureau of 
Investigation, 1998-present
    Executive Board Member, United Way of Thurston County, Washington, 
1999-2002
    Member, Women Executives in State Government, 1998-2002
    Member, Police Executive Research Forum, 1995-2002
    Member, International Association of Chiefs of Police, 1995-2002
    Member, Advisory Board, National Center for Women in Policing, 
1998-2002
    Member, National Association of Women in Law Enforcement, 1998-2002
    Executive Board Member, Washington Association of Sheriffs and 
Police Chiefs, 1995-2002
    Executive Board Member, Campfire Boys and Girls Club-Orca Council, 
1996-2000
    Vice-President, Washington State Patrol Troopers Association, 1990-
1992
    Executive Board Member, Washington State Patrol Troopers 
Association, 1989-1990
    Executive Board Member, Washington State Patrol Lieutenants 
Association, 1994
    13. Political affiliations and activities: (a) List all offices 
with a political party which you have held on any public office for 
which you have been a candidate; (b) List all memberships and offices 
held in and services rendered to all political parties or election 
committees during the last 10 years; (c) Itemize all political 
contributions to any individual, campaign organization, political 
party, political action committee, or similar entity of $500 or more 
for the past 10 years.
    (a)-None
    (b)-None
    (c)-Political Contributions:
    People for Chris Gregoire (2000-Washington State Attorney General's 
race) $530
    Locke 2000 (Washington State Governor's Race) $2,400
    Republican National Committee-2002 $1,000
    14. Honors and awards:
    Athletic Scholarship-Big Bend Community College, 1979-1981
    Rotary Scholarship-Moses Lake Rotary Club, 1980
    Highest Academic Award-Washington State Patrol Academy, 1984
    Chief's Award for Professional Excellence, 1988-1989
    Chief's Award for Distinguished and Devoted Service, 1994
    Merit Scholarship Recipient-University of Puget Sound School of 
Law, 1990-1991
    John B. Pickett Fellowship Recipient-Harvard University-Program for 
Senior Executives in State and Local Government, 1996
    Woman of the Year by the Women in Communications, Inc., 1996
    National Public Service Award, American Society for Public 
Administration and the National Academy of Public Administration, 1999
    Breaking the Glass Ceiling Award, National Center for Women in 
Policing, 2000
    Alumni of the Year-American Association of Community Colleges, 2002
    15. Published writings: None.
    16. Speeches: Provide the Committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of on topics relevant to the position for which you have been 
nominated.
    17. Selection: (a) Do you know why you were selected for the 
position to which you have been nominated by the President? (b) What in 
your background or employment experience do you believe affirmatively 
qualifies you for this particular appointment?
    (a) I believe I was selected for the position of Administrator of 
the Federal Motor Carrier Safety Administration because of my 
background of over 17 years in law enforcement and management as well 
as my on-going professional commitment to transportation safety. 
Additionally, my background in management of a large government agency 
was well established and a benefit for this position.
    (b) I served as a member of the Washington State Patrol for over 17 
years. My primary role in the agency was in the area of highway safety. 
Additionally, I served in a wide capacity of positions in the agency--
eventually advancing to the Chief of the agency. As a trooper my 
experience was primarily in the area of traffic safety and developing 
budgets and policy. In my tenure with the WSP I served as Chief for 6 
years. In my role as Chief, I commanded over 2,300 people statewide in 
a variety of disciplines. Over half of the personnel in the agency were 
enforcement personnel. Commissioned activities included traffic law 
enforcement, narcotics, organized crime, fraud investigations and other 
criminal investigations. My other public safety responsibilities 
included the State Fire Marshal's office, State Toxicologist, Fire 
Training Academy, state crime laboratory system, state police training 
academy, criminal telecommunications, and the state's repositories for 
fingerprints and criminal records. During my tenure with the agency I 
received numerous awards and honors for the work in the area of highway 
safety and management. In addition to this experience I have a Master's 
of Business Administration and a Juris Doctorate--both contribute to my 
management abilities in all positions I have held.
    I began my career with the Washington State Patrol in the area of 
commercial vehicle enforcement and then moved to general traffic 
enforcement duties. As a trooper and Sergeant I worked in positions in 
Headquarters developing budgets and policy for the agency. Later as 
Chief, I had the opportunity to lead the agency in employing a variety 
of technologies, such as the Commercial Vehicle Information Systems and 
Networks (CVISN) project, to improve our enforcement of commercial 
vehicle laws. As Chief, one of my primary roles was to work closely 
with the Washington State Legislature on the Governor's priorities and 
other public safety issues. These efforts included work on the state 
budget and passage of legislation. I have a good working understanding 
of the roles of the executive and legislative branches of government.
    Additionally, I have served the last year in various positions in 
the federal government. I served for 10 months as the Deputy 
Administrator of the National Highway Traffic Safety Administration. In 
this role I was responsible for a wide range of managerial functions. I 
also represented the agency and the U.S. Department of Transportation 
at functions around the nation. Most recently I have served as the 
Deputy and Acting Administrator of the Federal Motor Carrier Safety 
Administration. These federal positions have assisted my understanding 
to the federal government and the workings of the Department of 
Transportation.
    My background, experience and proven leadership ability make me 
well qualified for the position of Administrator of the Federal Motor 
Carrier Safety Administration.

                   B. FUTURE EMPLOYMENT RELATIONSHIPS

    1. Will you sever all connections with your present employers, 
business firms, business associations, or business organizations if you 
are confirmed by the Senate? Not Applicable.
    2. Do you have any plans, commitments, or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, explain. No.
    3. Do you have any plans, commitments, or agreements after 
completing government service to resume employment, affiliation, or 
practice with your previous employer, business firm, association, or 
organization? No.
    4. Has anybody made a commitment to employ your services in any 
capacity after you leave government service? No.
    5. If confirmed, do you expect to serve out your full term or until 
the next Presidential election, whichever is applicable? Yes.

                   C. POTENTIAL CONFLICTS OF INTEREST

    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers.
    Please refer to the Deputy General Counsel opinion letter.
    2. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated. None.
    3. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated? None.
    4. Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy. As Chief of the 
Washington State Patrol one of my primary responsibilities was to work 
for the passage, defeat, or modification of certain legislation that 
directly applied to public safety or the Washington State Patrol. This 
work included testifying on many occasions before various committees of 
the legislature. Prior to being Chief I served for one year as an 
assistant legislative liaison (a lieutenant) for the agency. In this 
role I also worked for passage, defeat, or modification (including 
testimony) of legislation that applied to public safety and the 
Washington State Patrol.
    5. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. (Please provide a copy of any trust or other agreements.) Please 
refer to the Deputy General Counsel opinion letter.
    6. Do you agree to have written opinions provided to the Committee 
by the designated agency ethics officer of the agency to which you are 
nominated and by the Office of Government Ethics concerning potential 
conflicts of interest or any legal impediments to your serving in this 
position? Yes.

                            D. LEGAL MATTERS

    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain. No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority for violation of 
any Federal, State, county, or municipal law, regulation, or ordinance, 
other than for a minor traffic offense? If so, please explain. No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain. I was involved in a number of 
administrative proceedings in my representational capacity as a Board 
member and the Vice President for the Washington State Patrol Troopers 
Association. These were all actions brought by or against the Troopers 
Association in its official capacity.
    I was named in numerous civil suits and administrative proceedings 
in my capacity as Chief of the Washington State Patrol. I was named in 
these suits against the agency as a result of the necessary performance 
of duties associated with the agency. Some of these suits are still 
pending and are being handled by the State of Washington. I am not a 
party to any other legal actions than those mentioned above.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain. No.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination. None.

                     E. RELATIONSHIP WITH COMMITTEE

    1. Will you ensure that your department/agency complies with 
deadlines for information set by congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Please explain how if confirmed, you will review regulations 
issued by your department/agency, and work closely with Congress, to 
ensure that such regulations comply with the spirit of the laws passed 
by Congress. In my role as Administrator I would ensure that rulemaking 
undertaken by the agency has carefully considered the underlying 
statutory construction that gave rise to the rulemaking. Additionally, 
I would welcome any input allowed under the Administrative Procedure 
Act from the Committee. If requested, I would keep the Committee 
informed as to the timetable and substance of the rulemaking, as 
allowed by the APA. The Federal Motor Carrier Safety Administration is 
fortunate to have a regulatory ombudsman to help insure that the 
process moves efficiently. I as Administrator would work closely with 
the Ombudsman in this process.
    5. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.

                  F. GENERAL QUALIFICATIONS AND VIEWS

    1. How does your previous professional experiences and education 
qualify you for the position for which you have been nominated?
    I served as a member of the Washington State Patrol for over 17 
years. My primary role in the agency was in the area of highway safety. 
Additionally, I served in a wide capacity of positions in the agency--
eventually advancing to the Chief of the agency. As a trooper my 
experience was primarily in the area of traffic safety and developing 
budgets and policy. In my tenure with the WSP I served as Chief for 6 
years. In my role as Chief, I commanded over 2,300 people statewide in 
a variety of disciplines. Over half of the personnel in the agency were 
enforcement personnel. Commissioned activities included traffic law 
enforcement, narcotics, organized crime, fraud investigations and other 
criminal investigations. My other public safety responsibilities 
included the State Fire Marshal's office, State Toxicologist, Fire 
Training Academy, state crime laboratory system, state police training 
academy, criminal telecommunications, and the state's repositories for 
fingerprints and criminal records. During my tenure with the agency I 
received numerous awards and honors for the work in the area of highway 
safety and management. In addition to this experience I have a Masters 
of Business Administration and a Juris Doctorate--both contribute to my 
management abilities in all positions I have held.
    I began my career with the Washington State Patrol in the area of 
commercial vehicle enforcement and then moved to general traffic 
enforcement duties. As a trooper and Sergeant I worked in positions in 
Headquarters developing budgets and policy for the agency. Later as 
Chief, I had the opportunity to lead the agency in employing a variety 
of technologies, such as the Commercial Vehicle Information Systems and 
Networks (CVISN) project, to improve our enforcement of commercial 
vehicle laws.
    As Chief, one of my primary roles was to work closely with the 
Washington State Legislature on the Governor's priorities and other 
public safety issues. This included work on the state budget and 
passage of legislation. I have a good working understanding of the 
roles of the executive and legislative branches of government.
    I have also worked as an attorney representing labor unions and 
representing small to medium size cities in the state of Washington in 
employment law. These duties included negotiating labor contracts, 
representing clients in grievances and arbitration hearings. This work 
broadened my experience base in that I represented Unions in three 
states and cities and counties in Washington of various sizes. This 
expanded my understanding of the working of government at the local 
level.
    I also worked as a consultant for a private company (Lockheed 
Martin) thus giving me experience with the private sector.
    Additionally, I have served the last year in various positions in 
the federal government. I served for 10 months as the Deputy 
Administrator of the National Highway Traffic Safety Administration. In 
this role I was responsible for a wide range of managerial functions. I 
also represented the agency and the U.S. Department of Transportation 
at functions around the nation. Most recently I have served as the 
Deputy and Acting Administrator of the Federal Motor Carrier Safety 
Administration. These federal positions have assisted my understanding 
to the federal government and the workings of the Department of 
Transportation.
    My background and experience qualify me for the position of 
Administrator of the Federal Motor Carrier Safety Administration.
    2. Why do you wish to serve in the position for which you have been 
nominated?
    I have been in the public sector for most of my adult life. I have 
served at the local, and state level of government and most recently in 
positions in the federal government. I consider it an honor to advance 
to the role of Administrator of the Federal Motor Carrier Safety 
Administration and work on safety issues as they relate to commercial 
vehicles.
    3. What goals have you established for your first two years in this 
position, if confirmed?
    The Federal Motor Carrier Safety Administration was established 
just three years ago--to give increased visibility to the area of Motor 
Carrier Safety. Within the next two years I would ensure the agency 
remains focused on our core mission of reducing traffic fatalities 
involving commercial vehicles. This would be done by reviewing the 
effectiveness and efficiency of current programs, and identifying new 
programs, that would contribute to the safe operations of commercial 
vehicles. This includes making sure every employee of the Federal Motor 
Carrier Safety Administration understands the agency's goals and works 
towards achieving them.
    Additionally, I would focus the agency on meeting deadlines given 
by the President, Congress and the Secretary of Transportation in the 
area of programs and rulemakings. This includes reviewing existing 
regulations and ensuring they are updated to meet current conditions 
and technologies. Current research underway would assist us in 
understanding the causation of commercial vehicle crashes and 
identifying countermeasures to mitigate the damage and injuries from 
those crashes. I would also strive to work closely with stakeholder 
organizations to ensure their input was considered and to work with 
them to meet the goal of reducing injuries and fatalities.
    I also would work closely with the National Highway Traffic Safety 
Administration and the Federal Highway Administration and other modes 
in the Department of Transportation to find ways to make surface 
transportation safer and more secure for the citizens of this country.
    4. What skills do you believe you may be lacking which may be 
necessary to successfully carry out this position? What steps can be 
taken to obtain those skills?
    I have limited experience with the federal government. However, I 
have now been in an executive position in the federal government for 
one year and believe this experience has assisted me in understanding 
the federal system. Likewise this year has given me the opportunity to 
develop a network of individuals with experience in the federal system 
that I can rely on for advice.
    5. Please discuss your philosophical views on the role of 
government. Include a discussion of when you believe the government 
should involve itself in the private sector, when society's problems 
should be left to the private sector, and what standards should be used 
to determine when a government program is no longer necessary.
    There is a very specific role for government in our society. Given 
my prior background--clearly one of these roles is that of the police 
powers of government. In many respects the mission of the Federal Motor 
Carrier Safety Administration's enforcement function falls within this 
essential role of government. However, just as I found in law 
enforcement, it is important in carrying out the enforcement mission to 
involve the stakeholders in setting priorities and determining when 
certain issues should be left to the private sector. This means 
involving industry, state and local government, Congress and others to 
examine the appropriate role government should play.
    During my tenure in the public sector I have seen many types of 
government functions that eventually shift from the public sector to 
the private sector. These transitions make it imperative that as 
leaders of government we constantly reexamine our programs. These 
transitions are simply good management and also support the President's 
Management Agenda.
    Additionally, programs should be reexamined not just for transition 
to the private sector but also for elimination. If there is a role that 
government has historically played--and the reason for that role no 
longer exists--we need to shift the scarce resources we have to those 
activities that will reap the best benefit. I have personally 
recommended the elimination of a program, which was no longer necessary 
and was eventually successful in shifting those funds to higher 
priority public safety needs, during my tenure as Chief of the 
Washington State Patrol.
    6. Describe the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated.
    The Federal Motor Carrier Safety Administration's mission is to 
save lives and reduce injuries by preventing/reducing truck and bus 
crashes on our nation's highways.
    The agency accomplishes this mission in many ways. We look not only 
to vehicle safety but also operation safety and performance through 
regulations--such as those for commercial drivers licenses. The major 
programs include the following:
    (1) Partnering with the states through the Motor Carrier Safety 
Assistance Program grants to provide funding for roadside inspection 
activities. Additionally, providing enforcement personnel with the 
necessary data to determine driver and vehicle qualifications.
    (2) Ensuring all trucks and buses entering the United States from 
Mexico and Canada meet the necessary safety standards and operate 
safely on our highways.
    (3) New Entrant Program--where the FMCSA and state partners will 
audit new entrants in the commercial operation to ensure compliance 
with all safety regulations within the first 18 months of operation.
    (4) Conducting compliance reviews on commercial carriers in the 
United States to ensure safe operation and correct any deficiencies or 
failure to comply with existing regulations.
    (5) Provide broad based consumer information about commercial 
vehicles and their operation. Including selecting an appropriate safe 
carrier for people and household goods.
    (6) Working closely with the Transportation Security Administration 
on security of commercial vehicles.
    7. What do you believe to be the top three challenges facing the 
department/agency and why?
    (1) Implementation of opening the border for NAFTA. This is a 
challenge in that to date there have been many issues surrounding 
opening the southern border for NAFTA. The agency met the challenge to 
hire and staff sites across the border. Additionally, numerous 
regulatory actions were taken to ensure all trucks crossing the border 
would comply with U.S. safety standards. However, there are still on-
going challenges--and the border has yet to be opened. The agency's 
primary challenge is to ensure all trucks crossing into the United 
States are as safe as possible, once the border is open. This means on-
going training for personnel, proper screening and inspections to name 
a few. This safety work includes both northern and southern border 
traffic.
    (2) Reauthorization. This is a challenge for the entire Department 
of Transportation, not just FMCSA. However, this is a particular 
challenge to FMCSA since the agency is only three years old and this 
will be the first time the agency has gone into the beginning of a 
reauthorization cycle. It will require that the agency have good 
justification and data for programs we would like funded in this 
reauthorization cycle. We will also need to establish good performance 
measures to show progress on our various safety goals.
    (3) Outreach to stakeholders. As an enforcement agency often times 
the agency sees itself in only a regulatory! enforcement role. Being a 
new agency within the Department of Transportation, the FMCSA is many 
respects sees itself this way. The agency's challenge is to move beyond 
simply a regulatory role--to a role of working with stakeholder groups 
to use their capacity to help us achieve our safety goals. This is a 
challenge in that it requires a philosophical shift in how we do 
business. The agency does not have all the answers--we need to work 
with stakeholders on the front end of regulations and programs--get 
their buy--in and then use the synergy of these partners to help 
implement the programs and regulations. This increases the reach of the 
safety mission of the agency exponentially.
    8. In reference to question number six, what factors in your 
opinion have kept the department/agency from achieving its missions 
over the past several years?
    The Federal Motor Carrier Safety Administration is only three years 
old. During this time the agency spent a tremendous amount of time 
trying to stand up a new structure under very trying circumstances. 
Additionally, as the agency was trying to meet the mandates of the 
legislation under which it was created, additional requirements of 
NAFTA were imposed. While the agency has done a tremendous job of 
meeting all these mandates it has not yet been given the opportunity to 
settle in and examine in detail business practices and programs to look 
for opportunities of improvement.
    The environment of today's transportation system overlies this. 
Freight movement and movement of people has become increasing important 
to the nation's economy. This is reflected by the actual increase in 
vehicle miles traveled. Commercial vehicle miles traveled are 
increasing at a rate of 3.4 percent per year compared to the overall 
increase in vehicle miles traveled of 2.8%. Even in this ever-
increasing environment the goal of FMCSA is to reduce truck and bus 
related fatalities and crashes. As congestion and other factors impact 
this goal, we must find ways to create a safe transportation system.
    9. Who are the stakeholders in the work of this department/agency?
    Agency stakeholders are the Congress, state and local elected 
officials, the traveling public, commercial transportation businesses, 
traffic safety advocates, and the workers in commercial vehicle 
transportation industry. Most importantly every American citizen is a 
stakeholder.
    10. What is the proper relationship between the position to which 
you have been nominated, and the stakeholders identified in question 
number nine?
    Secretary Mineta has stressed to all modes the importance of 
accessibility and accountability as a core obligation. I am ultimately 
accountable to the American public for ensuring the safe movement of 
commercial vehicles. In carrying out this obligation I would listen 
carefully to all stakeholders remembering first and foremost the 
mission of the agency.
    11. The Chief Financial Officers Act requires all government 
departments and agencies to develop sound financial management 
practices.
    (a) What do you believe are your responsibilities, if confirmed, to 
ensure that your department/agency has proper management and accounting 
controls?
    In my past role as Chief of the Washington State Patrol my 
responsibility was to ensure the same types of fiscal accountabilities. 
While the federal accounting system is somewhat different from that of 
a state--the principals are the same--that is to ensure proper 
accountability for all monies appropriated to the agency and insure 
that those monies are spent on the authorized activities. This means 
that certain checks and balances need to be in place for this 
accountability. I would work with the Department's CFO to ensure all 
necessary accountability measures are in place and being practiced by 
the FMCSA.
    (b) What experience do you have in managing a large organization?
    For 6 years, as Chief of the Washington State Patrol I managed a 
statewide public safety agency with over 2,300 employees and a biennial 
budget of $330 million. This agency had a very wide range of employees 
from sworn police officers, forensic scientists, state fire marshals, 
fingerprint technicians, two training academies, criminal 
telecommunications networks and the state's repositories for 
fingerprints and criminal history records.
    As Chief, one of my primary roles was to work closely with the 
Washington State Legislature on the Governor's priorities and other 
public safety issues. This included work on the state budget and 
passage of legislation.
    I have served the last year in various positions in the federal 
government. I served for 10 months as the Deputy Administrator of the 
National Highway Traffic Safety Administration. In this role I was 
responsible for a wide range of managerial functions. I also 
represented the agency and the U.S. Department of Transportation at 
functions around the nation. Most recently I have served as the Deputy 
and Acting Administrator of the Federal Motor Carrier Safety 
Administration. These federal positions have assisted my understanding 
to the federal government and the workings of the Department of 
Transportation.
    12. The Government Performance and Results Act requires all 
government departments and agencies to identify measurable performance 
goals and to report to Congress on their success in achieving these 
goals.
    (a) What benefits, if any, do you see in identifying performance 
goals and reporting on progress in achieving those goals?
    I think there are tremendous benefits in identifying performance 
goals and reporting progress in achieving those goals. These benefits 
carry throughout the agency and add to the credibility of why the 
agency even exists. All employees need to understand how they 
contribute to the overall safety of the United States transportation 
system. This can only be done by clearly identified goals and in turn 
reported progress on those goals. Additionally, the goals help decision 
makers decide the effectiveness or ineffectiveness of programs.
    (b) What steps should Congress consider taking when a department/
agency fails to achieve its performance goals? Should these steps 
include the elimination, privatization, downsizing, or consolidation of 
departments and/or programs?
    If the agency fails to meet its goals, there should be a thorough 
evaluation of the reasons for the failure and a course of action to 
correct the failure. There may be many reasons for the failure 
including, poor strategy, a change outside the control of the agency, 
or flawed leadership. In determining a course for correction any of the 
above steps could be appropriate.
    (c) What performance goals do you believe should be applicable to 
your personal performance, if confirmed?
    The overriding performance goal that should be applicable to my 
performance is to save lives on our nation's highways. This is the core 
mission of the Federal Motor Carrier Safety Administration and the 
Department of Transportation. I believe the programs of the Federal 
Motor Carrier Safety Administration should be directed to this goal.
    Additionally, I believe that I should be held to the highest 
ethical and management standards as the head of the agency. Thus I 
would expect to be held accountable for the overall management of 
personnel and funds of the agency.
    13. Please describe your philosophy of supervisor/employee 
relationships. Generally, what supervisory model do you follow? Have 
any employee complaints been brought against you?
    In an enforcement agency all employees must have the highest level 
of ethical conduct. To meet this goal I set manageable goals and treat 
everyone with respect. I give employees the responsibility and 
authority to do the job--yet at the same time hold them accountable for 
results. I value open and honest communication and expect every manager 
in the organization to do the same. I am a hands-on manager--meaning I 
like to get out and actually go to the work environment and see the 
challenges and opportunities that we as an agency have. Managers need 
to understand the work environment of their employees and understand 
how program and policy changes impact that work environment. Decisions 
from headquarters should not be made in a vacuum. I believe in engaging 
employees in the process as much as possible so that change is more 
readily accepted. However, I will not accept business as usual--unless 
I can see that it produces measurable gains in achieving the agencies 
mission.
    As Chief of the Washington State Patrol, various employee 
complaints were brought against me. In the Patrol we dealt with 17 
separate and distinct labor unions--this meant that at times some were 
unhappy with management decisions that impacted the entire agency. 
These actions were brought against the agency and against me as the 
final decision maker in personnel and contractual matters, and were a 
result of the legal and necessary performance of duties.
    14. Describe your working relationship, if any, with the Congress. 
Does your professional experience include working with committees of 
Congress? If yes, please explain.
    I have not worked for the federal government for very long and thus 
have not developed a working relationship with Congress. If confirmed, 
I would expect to work closely and regularly with Members of Congress 
and their staffs, on both sides of the aisle.
    My professional experience in working with Congress is very limited 
to a couple of hearings and meetings I attended as the Deputy 
Administrator of the National Highway Traffic Safety Administration. 
However, in my role as Chief I worked closely with members and 
committees of the Washington State legislature. In that role, I was 
responsive to legislative inquiries and requests. I would strive to 
have the same type of relationship with committees and members of 
Congress.
    16. Please explain what you believe to be the proper relationship 
between yourself, if confirmed, and the Inspector General of your 
department/agency.
    I consider the Inspector General to be comparable to the Internal 
Affairs of a police department. This is a very necessary function 
within the agency to ensure accountability and performance of the 
agency. This function is critical to the credibility of the agency in 
meeting the expectations of the Congress and the public at large. In my 
various roles inside the Department of Transportation to date, I have 
worked to develop a good relationship with the Inspector General. 
Understanding the critical role the IG must play--but also 
understanding the value it brings to the agency. If confirmed I would 
continue to work closely with the Inspector General.
    17. In the areas under the department/agency's jurisdiction to 
which you have been nominated, what legislative action(s) should 
Congress consider as priorities? Please state your personal views.
    Reauthorization is one of the biggest priorities Congress should 
consider. This essentially provides the roadmap for the agency for the 
next reauthorization cycle. The theme for the Department for this 
reauthorization cycle is ``Safety''. With this ``safety'' emphasis the 
reauthorization will set the tone for years to come. Likewise, Congress 
should consider the agency's safety programs as a high priority. It is 
only through these programs that we will achieve our goal of reducing 
fatalities on our nation's highways. This includes the implementation 
of NAFTA safety initiatives.
    18. Within your area of control, will you pledge to develop and 
implement a system that allocates discretionary spending in an open 
manner through a set of fair and objective established criteria? If 
yes, please explain what steps you intend to take and a time frame for 
their implementation. If not, please explain why.
    Yes. FMCSA has very little discretionary spending available. Most 
of our funding is in the form of formula grants to the states or is 
directed to specific programs required by Congress. However, on what 
little discretionary funding is available, the Department has publicly 
stated criteria applicable to such spending, and it is my intent to 
comply with those policies.

    The Chairman. Thank you.
    Ms. Sandberg. Senator, with regard to the LCV freeze, the 
Administration and DOT has not considered lifting the freeze on 
LCVs at this point in time. And you know, I can't say as far as 
what's going to happen during the reauthorization period, but I 
do know one of the things that the Department has begun to look 
at is how we're going to handle the increase in capacity of 
freight on our nation's highways.
    We know that the statistics show that freight will increase 
as much as 43 percent over the next 10 years. And with the 
congestion that we already see on our highways, we know that we 
have to find an adequate way to handle that freight without 
increasing the congestion and increasing the exposure. And as 
you said in your question, safety is our number one priority in 
the Federal Motor Carrier Safety Administration, and one of the 
things I stress every time I sit in a departmental meeting when 
we discuss the whole issues of size and weight, LCVs or any 
other issue that we have.
    And so, that would be actually handled in a much broader 
context as we look at multi-modal access to freight and how we 
are going to handle this increase in freight capacity.
    Senator Lautenberg. Do you think that truck size and weight 
is a safety issue?
    Ms. Sandberg. Clearly, there are potentially some safety 
issues with LCVs--and I know we have been working with Mary 
Peters in Federal Highways with regard to roadway 
infrastructure, and size and weight can be a problem with 
regard to infrastructure, as well as stopping distances and 
those kinds of things. And so I think that we need to take into 
consideration in any discussion on lifting the freeze of 
routes, whether they are on specific routes, what kind of 
damage they're going to do to the infrastructure, what kind of 
other traffic they're going to be mixed in with. And so there 
are a number of factors that need to be taken into 
consideration that are safety related.
    Senator Lautenberg. Do you sense any politicizing of this 
safety issue? Because it appears to be that case, a lot of 
pressure coming from the trucking industry to get larger trucks 
out there. And I can tell you that speaking for New Jersey, who 
has more than, as I mentioned, its fair share of the truck 
traffic, because we are the north-south direct route, and our 
highways constantly are up for rehab, repair, and it's a mess. 
And we've had, as I mentioned to you earlier, a 2-hour wait to 
cross the George Washington Bridge that goes from New Jersey to 
New York, but yet the pressure exists.
    And I hear your message. We want to accommodate growth and 
efficient movement of goods, but then we've got to make changes 
way ahead of the arrival of those days, and put the appropriate 
funds into highways. But we also have to put the appropriate 
thinking into that.
    And I know that our New Jersey Turnpike, which is our 
busiest road, has a separation of cars and trucks for much of 
its distance, and it's a more comfortable feeling, I've driven 
on that road, not to have some giant behind you breathing down 
your back at 80 miles an hour. So I just hope that we're going 
to be very cautious about making any recommendations to 
increase weight and size on any road that doesn't clearly have 
the safety structure to accommodate it.
    Ms. Sandberg. Yes, Senator, thank you.
    Senator Lautenberg. Thank you.
    The Chairman. Thanks, Senator Lautenberg.
    Ms. Sandberg, don't answer these questions if you think 
it's going to jeopardize your nomination.
    [Laughter.]
    The Chairman. Should there be criminal penalties for 
failure to use seat belts? Don't answer if you----
    Ms. Sandberg. Having come from NHTSA and having been 
involved as an officer, I know one of the things that this 
Administration is strongly encouraging is primary laws for seat 
belts, not necessarily criminal penalties, these would be civil 
penalties. We know that States that passed primary laws 
increased their seat belt usage by 10 percentage points, and 
for every one percentage point of seat belt usage that we have 
increased in this country is 270 lives saved.
    So I think we need to do anything we can towards moving 
States towards primary laws, that would be the first step. We 
think that if all States would pass primary laws, and currently 
there are only 17 States and the District of Columbia that have 
primary laws, that we would see a significant increase in seat 
belt usage as well as lives saved, which definitely moves us 
towards our goal.
    The Chairman. Should law enforcement officers stop people 
for the sole reason that they're not using seat belts?
    Ms. Sandberg. That's the primary seat belt law, that's the 
emphasis behind that. I know there has been a tremendous amount 
of controversy about whether that should be the sole reason. In 
Washington State I can give you an example. We actually had 
seat belt usage with a secondary law in Washington State at 
about 84 percent. When Washington State passed their primary 
seat belt law last year, which gave law enforcement officers 
the ability to stop somebody solely for not having a seat belt, 
their percentage of usage of seat belts went up to 93 percent, 
which is now the highest in the country. And I think that the 
lives that we save far offset any concerns about potential 
civil liberty problems. As long as there's insight given to 
those officers around the traffic stop issue, those kinds of 
things, the most important goal is that we save these lives. We 
lose far too many people on our highways.
    The Chairman. Roadblocks to apprehend drunk drivers.
    Ms. Sandberg. All I can speak from there is my experience 
in Washington, where we weren't allowed to do roadblocks.
    The Chairman. You were not?
    Ms. Sandberg. No, we were not. The State constitution 
prohibited it. But clearly, I know that States that have used 
roadblocks, that that is an effective tool of getting drunken 
drivers off the road.
    The Chairman. We do it in Arizona.
    Ms. Sandberg. A number of States do. And I know that 
between the lack of seat belt usage and drunk drivers, that 
makes up about 70 percent of the motor vehicle fatalities that 
we have in this country and I think we need to do something to 
make sure that we reduce those fatalities.
    The Chairman. We had a terrible scandal in the State of 
Illinois where the Secretary of State's office was bribed in 
return for issuance of licenses for people to drive trucks all 
around the country. What do you do about that?
    Ms. Sandberg. Actually, over the last few years we've 
really shored up our commercial driver's license program. One 
of the grants that we're giving the States is to make sure that 
the data that we have in the commercial driver's license 
database is the most accurate. The other things is that we have 
trained our division administrators and our staff in the States 
to go in and do compliance reviews of the systems that the 
States have set up to make sure that these kinds of sales 
aren't going on. We also look to the Inspector General's 
office.
    Additionally, you will see in our 2004, the 
Administration's 2004 budget request, we are asking for an 
additional $11 million for the CDL program to address these 
kinds of things and to make sure that we have the safest 
commercial driver's license program across the United States.
    The Chairman. As you know, the U.S. Court of Appeals, a 
Ninth Circuit Court, prohibited the entry of Mexican trucks 
into the United States pending a full environmental impact 
statement, and the Court denied a DOT request for a rehearing. 
Do you think the Administration should appeal that decision to 
the Supreme Court?
    Ms. Sandberg. The Department is planning on appealing that 
decision.
    The Chairman. Suppose that the Supreme Court overturned the 
Ninth Circuit Court, which is more normal than not, I suppose. 
Would you be prepared at that time to implement sufficient 
rules, regulations, inspections, et cetera, in regards to 
Mexican trucks, do you have that confidence?
    Ms. Sandberg. Yes, I do. I have had the opportunity since 
I've been the Acting Administrator, to go down and visit the 
border and talk to our border staffing. Actually, if the border 
were to open today, we would be ready. We have staff on the 
border, they have been built up over the last year. I've been 
working with the Inspector General's office in DOT to ensure 
that we've met all the required congressional mandates. And 
having talked to my staff down there, I looked at the plan that 
we have. We are prepared to open the border as we speak.
    The Chairman. You have more of a challenge now that the war 
on terror has complicated all of our border situations. That's 
not an additional problem?
    Ms. Sandberg. As far as the war on terrorism, we're working 
closely with the Transportation Security Administration, as 
well as U.S. Customs. One of the things I was very pleased to 
see when I visited the border site at Laredo was that we 
actually are on the Customs inspection lot, and so we work 
carefully with Customs.
    And so anything that our inspectors see as they are 
inspecting the truck, they can refer over to the Customs 
officers to further investigate. We have had a number of 
instances where Customs have actually trained our staff in what 
to look for as far as hidden compartments and other things, 
suspicious activity of drivers, as well as concerns about 
paperwork. And so, we are working closely with Customs at all 
those border sites right now, and I think that we are prepared 
for any potential situation that could happen down there.
    The Chairman. I recommend you take some more visits down to 
the border, our southern border as well as the northern border. 
We do have enormous challenges as commerce continues to 
increase and a backup of both goods and services, particularly 
as far as commercial vehicles are concerned. It continues to 
increase and we're going to have to employ, I think, additional 
technology development, if we are going to resolve these 
problems. I invite you down to see the situation in Arizona, as 
well as Texas and California.
    I know that Senator Cantwell has some very hard-hitting 
difficult questions for you, so I will ask her to proceed.
    Senator Cantwell. Thank you, Mr. Chairman, thank you for 
bringing up the war issues, because they are important to both 
of our States and to the country in the sense of security is 
only as good as the efficiency that goes along with it. Thank 
you for mentioning how technology might play a role in helping 
that effort.
    I'm encouraged, Miss Sandberg, as to some of the efforts at 
the northern border. My understanding is we have added more 
inspectors. Do you think that it's helped, do you think that we 
need to add more inspectors, what should that process be?
    Ms. Sandberg. We have added some more up on the northern 
border and actually in our 2004 budget request, in the 
Administration's 2004 budget request, we're asking for 
additional ones for northern border security, specifically 
around hazardous material shipments.
    We know that there are a tremendous number of hazardous 
material shipments that come across from Canada into the United 
States every day, and with the money that we have requested for 
2004, it's going to increase the number of hazardous materials 
inspection stations at what we view as the main sites as well 
as what we consider off sites, those that are less frequently 
used, not staffed as heavily. We estimate with the money that 
we have requested, we could do 200,000 additional inspections 
at the border for hazardous materials.
    So we do think there needs to be some additional funding 
for the northern border, and specifically around hazardous 
materials.
    Senator Cantwell. What does that increase look for as far 
as manpower?
    Ms. Sandberg. Most of the money goes to the States. Most of 
our programs, particularly when it comes to roadside 
inspections, is money that we pass through our agency to the 
States and then the States perform those inspections. I can't 
give you a specific number, but I would be happy to provide 
that for the record later.
    Senator Cantwell. And then looking at some of the--I know 
you talked very specifically, but if you were going to 
categorize your broad goals as the new Administrator, how would 
you categorize them?
    Ms. Sandberg. My broad goal is first and foremost safety, 
and one of the things that I reiterate to staff every day is 
everything we do has to focus on the goal of reducing 
fatalities and injuries on our Nation's highways as related to 
commercial vehicles.
    I share a goal with Dr. Runge of the National Highway 
Traffic Safety Administration and Mary Peters of the Federal 
Highway Administration, of reducing the overall highway 
fatality goals to 1.0 per 100 million vehicle miles traveled, 
by the year 2008. And the three of us together have to work 
together to hope to hit that goal, so that's the overarching 
goal.
    Senator Cantwell. Is that a new target?
    Ms. Sandberg. No, that's the target that the Department's 
had. The Motor Carrier target is different; we have recently 
changed our target to match with the Department's target, which 
is the 41 percent reduction that we mentioned earlier.
    And then we have some subgoals under there. The first is to 
meet a number of congressional mandates. When the Agency was 
formed in 1999, there were a number of programs that were 
required under that authorizing legislation and we are working 
on completing all of those, as well as some old rulemakings. 
The hours of service was really a landmark since it had been 
close to 65 years since that rule had been changed.
    We have a number of other rulemakings that are well overdue 
and we are putting additional emphasis in the Agency on getting 
those done.
    Senator Cantwell. So where would this border safety issue 
fall?
    Ms. Sandberg. Border safety is in the overall safety goal, 
the overall programmatic, you know, reducing injuries and 
fatalities, and looking at the hazardous materials 
instructions.
    Senator Cantwell. And so how does the Agency comment on the 
newest technology, what is the process? Because you have some 
challenges, some of the technology from the Customs side that 
has been implemented and not been as successful as we would 
like. So as I mentioned, the efficiency of the system obviously 
impacts the economy of the country as well, certainly impacts 
the economy of our state as well, but what's the process?
    I'm concerned because we employed some of these 
technologies and we found that they worked really well on the 
southern border, probably related to the conditions and 
circumstances of the southern border, not so well in the wet 
and windy Northwest, so some of that technology hasn't been too 
successful.
    Ms. Sandberg. I can't speak for Customs. I can speak for 
some of the technology that we have applied to commercial motor 
vehicles in the Federal Motor Carrier Safety Administration, 
actually through a joint project with what we call the joint 
ITS committee inside the Department of Transportation as a 
whole.
    We have a project called the Commercial Vehicle Systems 
Information Network, and actually Washington State was one of 
the pilot States. It is to deploy roadside technology to both 
weight and motion, where a truck can actually cross the scales 
at freeway speed, it measures each individual axle, it measures 
the overall length of the truck, it measures the overall 
weight. And actually, you can set parameters inside the 
computer that will flag the truck into the scale. Those that 
aren't overweight and meet the standards can simply bypass.
    There is also some additional technology that we put into 
the roadside that actually reads whether they have paid for 
their permits, their licensing fees, and there are transponders 
that are on the sides of the truck that we can read what the 
load is, when was the last time the truck was inspected. That 
type of technology gives the officers at the roadside an 
opportunity to bypass those trucks that are doing what they 
need to do, and it gives those roadside inspectors an 
opportunity to focus on the more problematic areas.
    So that technology has been very effective in the States 
that we have deployed it, and we have money requested in our 
2004 appropriations to actually continue to increase that 
across the United States beyond the pilot States.
    Senator Cantwell. That decisionmaking process, is that 
within the Agency or do you involve the larger IT group within 
DOT?
    Ms. Sandberg. We involve the larger IT group within DOT 
because it really does impact Federal Highways with regard to 
roadway infrastructure and the money they need to give to the 
States.
    Senator Cantwell. Thank you, Mr. Chairman.
    The Chairman. Thank you. Ms. Sandberg, we will move your 
nomination to the floor as quickly as possible, and we want you 
to be able to get to work with some job security. And we thank 
you for your willingness to serve the country and we look 
forward to working with you on issues of great importance to 
the nation in the future. Again, congratulations.
    Senator Cantwell. Mr. Chairman, if I could add, I 
understand Ms. Sandberg is climbing Mt. Rainier later this 
summer, so I wish you well for your own personal safety on 
that.
    The Chairman. Yes. Come to Arizona and climb Camel Back 
Mountain, it's much easier.
    This hearing is adjourned.
    [Whereupon, at 10:35 a.m, the hearing was adjourned.]


                                  <all>

</pre></body></html>
